LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 21, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20A68: JOHN H. MERRILL, ALABAMA SECRETARY OF STATE, ET AL. V. PEOPLE FIRST OF
ALABAMA, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae League of Women Voters
of Alabama and American Association of University Women on October 21, 2020, I caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020 on the
following counsel for the Petitioner/Applicants and Respondents. Additional copies were
electronically served on others by Counsel for Amici.*
PETITIONER/APPLICANTS:
Edmund Gerard LaCour Jr.
Office of the Attorney General
501 Washington Ave.
Montgomery, AL 36130
334-353-2196
edmund.lacour@alabamaag.gov

RESPONDENTS:
Caren Short
Nancy Gbana Abudu
Southern Poverty Law Center
PO Box 1287
Decatur, GA 30031
404-521-6700
caren.short@splcenter.org
nancy.abudu@splcenter.org

This service was effected by depositing one copy of the Motion for Leave to File and
Brief of Amici Curiae League of Women Voters of Alabama and the American Association of
University Women in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 21st day of October 2020.

*

On October 19, 2020, Amici submitted a Motion for Leave to File to the Court. On October 21, 2020
Amici's Motion for Leave to File was not accepted by the Court for filing. The enclosed Motion for Leave to
File is identical to Amici's motion dated October 19, 2020, with the following two exceptions. First, Amici's
Motion requests leave to file in an unbound format on 8.5-by-11-inch paper rather than in booklet form.
Second, Amici have removed a reference in their Brief, page 3, that incorrectly identified Circuit Clerk JoJo
Schwarzauer and Probate Judge Don Davis as Applicants in this matter.

